1a
APPENDIX
LIST OF AMICI CURIAE
Please note that the signatories listed herein
appear on their own behalf. Institutional affiliations are listed for identification purposes
only.
Lenni Benson
Distinguished Professor of Immigration and Human
Rights Law
New York Law School
Richard A. Boswell
Professor of Law; Director, Immigration Clinic
University of California, Hastings College of the Law
Jason A. Cade
J. Alton Hosch Associate Professor of Law
University of Georgia School of Law
Kristina M. Campbell
Jack & Lovell Olender Professor of Law; Co-Director,
Immigration & Human Rights Clinic
University of the District of Columbia
David A. Clarke School of Law
Jennifer M. Chacón
Professor of Law
University of California, Los Angeles School of Law
Gabriel J. Chin
Edward L. Barrett Jr. Chair; Martin Luther King Jr.
Professor
University of California, Davis School of Law
Michael J. Churgin
Raybourne Thompson Centennial Professor in Law
University of Texas at Austin

2a
Alina Das
Professor of Clinical Law
New York University School of Law
Ingrid Eagly
Professor of Law
University of California, Los Angeles, School of Law
Charles Shane Ellison
Director, Immigrant and Refugee Clinic
Creighton University School of Law
Jennifer Gordon
Professor of Law
Fordham University School of Law
Laura A. Hernandez
Professor of Law
Baylor Law School
Julia Hernandez
Assistant Professor of Law
City University of New York School of Law
Geoffrey A. Hoffman
Clinical Professor; Director, Immigration Clinic
University of Houston Law Center
Mary Holper
Associate Clinical Professor
Boston College Law School
Alan Hyde
Distinguished Professor
Rutgers University
Kevin R. Johnson
Dean; Professor of Law
University of California, Davis School of Law

3a
Kit Johnson
Associate Professor of Law
University of Oklahoma College of Law
Daniel Kanstroom
Professor of Law; Thomas F. Carney Distinguished
Scholar; Faculty Director, Rappaport Center for
Law and Public Policy; Co-director, Center for
Human Rights and International Justice
Boston College Law School
Anil Kalhan
Professor of Law
Drexel University Thomas R. Kline School of Law
Elizabeth Keyes
Associate Professor of Law
University of Baltimore School of Law
Kathy Khommarath
Adjunct Associate Professor of Law
Southwestern Law School Removal Defense Clinic
Staff Attorney and Program Manager
Southwestern Law School Pro Bono Removal
Defense Program
Jennifer Lee Koh
Visiting Professor of Law
University of California, Irvine School of Law
Peter Margulies
Professor of Law
Roger Williams University School of Law
M. Isabel Medina
Ferris Family Distinguished Professor of Law
Loyola University New Orleans College of Law

4a
Nancy Morawetz
Professor of Clinical Law
New York University School of Law
Hiroshi Motomura
Susan Westerberg Prager Distinguished Professor
of Law
University of California, Los Angeles School of Law
Karen Musalo
Professor of Law; Bank of America Foundation
Chair in International Law
University of California, Hastings
Lindsay Nash
Assistant Clinical Professor of Law; Co-Director,
Kathryn O. Greenberg Immigration Justice Clinic
Benjamin N. Cardozo School of Law
Mariela Olivares
Professor of Law
Howard University School of Law
Michael A. Olivas
William B. Bates Distinguished Chair in Law
University of Houston Law Center
Helen Parsonage
Adjunct Professor of Law
Wake Forest University School of Law
Talia Peleg
Associate Professor of Law
City University of New York School of Law
Sarah I. Plastino
Adjunct Professor of Law
University of Denver, Sturm College of Law

5a
Andrea Ramos
Clinical Professor of Law; Director, Immigration
Law Clinic
Southwestern Law School
Carmen Maria Rey
Assistant Professor of Clinical Law
Brooklyn Law School
Maritza Reyes
Associate Professor of Law
Florida Agricultural and Mechanical University
College of Law
Sarah Rogerson
Professor of Law; Director, Immigration Law Clinic
Albany Law School
Victor C. Romero
Professor of Law
Penn State Law – University Park
Carrie L. Rosenbaum
Lecturer; Visiting Scholar
University of California, Berkeley
John Allen Scanlan
Professor Emeritus
Maurer School of Law, Indiana University,
Bloomington
Irene Scharf
Professor of Law; Director Immigration Law Clinic
University of Massachusetts School of Law
Ragini Shah
Clinical Professor of Law
Suffolk University Law School

6a
Rebecca Sharpless
Professor of Law
University of Miami School of Law
Gemma Solimene
Clinical Associate Professor of Law
Fordham University School of Law
Juliet Stumpf
Robert E. Jones Professor of Advocacy and Ethics
Lewis & Clark Law School
Maureen A. Sweeney
Law School Professor
University of Maryland Carey School of Law
Margaret Taylor
Professor of Law
Wake Forest University School of Law
David B. Thronson
Alan S. Zekelman Professor of International
Human Rights Law
Michigan State University College of Law
Allison Brownell Tirres
Associate Professor of Law
DePaul University College of Law
Philip L. Torrey
Managing Attorney, Harvard Immigration and
Refugee Clinical Program
Harvard Law School
Enid Trucios-Haynes
Professor of Law
Louis D. Brandeis School of Law, University
of Louisville

7a
Julia Irene Vazquez
Associate Clinical Professor of Law; Director,
Community Lawyering Clinic
Southwestern Law School
Shoba Sivaprasad Wadhia
Samuel Weiss Faculty Scholar and Clinical
Professor of Law
Penn State Law – University Park
Julie Waterstone
Associate Dean for Experiential Learning; Clinical
Professor of Law; Director, Children’s Rights Clinic
Southwestern Law School
Michael Wishnie
William O. Douglas Clinical Professor of Law
Yale Law School

